Office of Audits and Evaluations
Report No. AUD-14-010


Material Loss Review of The Bank of Union,
El Reno, Oklahoma




                                   September 2014
                                     Executive Summary

                                     Material Loss Review of The Bank of Union,
                                     El Reno, Oklahoma
                                                                                      Report No. AUD-14-010
                                                                                             September 2014

Why We Did The Audit
Section 38(k) of the Federal Deposit Insurance Act (FDI Act), as amended, provides, in general, that if
the Deposit Insurance Fund (DIF) incurs a material loss with respect to an insured depository institution,
the Inspector General of the appropriate federal banking agency shall prepare a report to that agency that
includes a review of the agency’s supervision of the institution. Section 38(k) establishes a material loss
review (MLR) threshold of $50 million for losses that occur on or after January 1, 2014.

On January 24, 2014, the Oklahoma State Banking Department (OSBD) closed The Bank of Union
(BOU), and the FDIC was appointed receiver. The FDIC notified the Office of Inspector General (OIG)
on March 10, 2014, that BOU’s total assets at closing were $243.7 million and that the estimated loss to
the DIF was $70 million (or 29 percent of BOU’s total assets). The FDIC OIG engaged KPMG LLP to
conduct an MLR of BOU, the objectives of which were to (1) determine the causes of BOU’s failure and
the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of BOU, including the
FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
BOU was chartered in 1900 in Union City, Oklahoma, and became insured by the FDIC in 1959. In
1992, the bank opened an office in El Reno, Oklahoma, which is located approximately 25 miles west of
Oklahoma City. BOU relocated its main office to El Reno in 2007 while maintaining a branch office in
Union City. The bank also maintained a loan production office in Oklahoma City. Union City
Corporation (UCC), a one-bank holding company, owned all of BOU’s stock. UCC’s principal
shareholders consisted of two siblings, each of whom owned 41 percent of UCC’s stock. Neither sibling
served on BOU’s Board of Directors (Board). The Chairman of BOU’s Board, who also served as the
bank’s President and Chief Executive Officer (CEO)—herein referred to collectively as the CEO—until
November 2013, owned 15 percent of UCC’s stock. UCC’s remaining shares consisted of treasury stock.

BOU was a community bank that offered traditional banking services to local businesses and consumers.
The bank’s assets were centered in its loan portfolio, which had large concentrations in commercial and
industrial (C&I) and agricultural loans. Most of BOU’s C&I loans were made to rural cattle ranching and
trucking businesses and were generally secured by assets such as livestock, equipment, single-family
residences, and oil and gas leases. The bank’s agricultural loans were made to cattle and farming
operations and were primarily secured by livestock, ranch land, and trucking and farming equipment.


Audit Results
Causes of Failure and Material Loss

BOU failed primarily because its Board and management did not effectively manage the risks associated
with the bank’s aggressive growth and concentrations in C&I and agricultural loans, particularly in the
livestock and trucking industries. Notably, BOU’s lending function lacked adequate internal controls and
sufficient seasoned loan officers to effectively manage the growth and complexity of the loan portfolio.
For example, BOU lacked an adequate loan review function and credit grading system and frequently
extended, deferred, and renewed loans without fully assessing the borrowers’ ability to repay or
adequately inspecting collateral, when appropriate. BOU’s oversight and management of account


                                                     i
   Executive Summary
                                      Material Loss Review of The Bank of Union,
                                      El Reno, Oklahoma                                                         T
                                                                                       Report No. AUD-14-010
                                                                                              September 2014

overdrafts was also inadequate. These inadequate internal controls and certain actions of the CEO, as
described later, clouded the true financial condition of BOU’s loan portfolio. BOU also had a large and
complex borrowing relationship that was not adequately administered, exposing the bank to significant
credit risk and losses.

In general, BOU’s Board was not sufficiently engaged in overseeing the bank’s lending strategies and
practices. The Board relied heavily upon the CEO, who exercised significant control over the lending
function after the departure of senior lending officials in 2012 and made many of the decisions to
originate and renew loans that were ultimately charged off. Significant financial deterioration in BOU’s
loan portfolio became apparent in 2012, and by the close of the 2013 joint examination, BOU’s past due
and nonaccrual loans totaled $157.8 million (or 54 percent of the loan portfolio). A substantial portion of
these loans consisted of livestock and trucking loans. The bank recognized approximately $157.3 million
in loan losses between January 2011 and the bank’s failure, depleting its earnings and eroding its capital.
The OSBD closed BOU due to the bank’s inability to raise sufficient capital to support safe and sound
banking operations.

The FDIC’s Supervision of BOU

The FDIC, in coordination with the OSBD, provided ongoing supervisory oversight of BOU through
regular onsite examinations, visitations, targeted reviews, and various offsite monitoring activities.
Through its supervisory efforts, the FDIC identified risks in the bank’s operations as early as 2008 and
brought these risks to the attention of the institution’s Board and management through examination
reports, a visitation report, correspondence, and informal and formal enforcement actions. Such risks
included inadequate Board and management oversight of the bank’s complex structured credit products,
lending practices (including loan administration and monitoring), and loan portfolio. With the benefit of
hindsight, BOU’s practice of continually extending, deferring, and renewing its livestock loans warranted
an elevated level of scrutiny because such credits are typically structured as short-term loans that are paid
off when the underlying collateral (i.e., livestock) is liquidated. When the structure and purpose of such
loans are not properly aligned and enforced, the ability of bank management to effectively monitor the
loans and identify performance problems can become compromised.

In the overall context of the examination findings, the February 2011 joint examination resulted in an
upgrade to BOU’s supervisory ratings, the termination of a Memorandum of Understanding, and the
extension of the on-site examination interval from 12 to 18 months. At that time, BOU was experiencing
rapid growth in its agricultural and C&I loans secured primarily by livestock and exhibited weak loan
underwriting, administration, and monitoring practices, which were repeat concerns from the prior
examination. The February 2011 report of examination recommended that BOU improve its loan
administration practices with respect to extensions, deferrals, and renewals. However, BOU did not
address those recommendations and continued its practice of extending, deferring, and renewing loans. In
retrospect, it would have been prudent for the FDIC to have followed up with the bank to ensure these
repeat concerns were promptly corrected. Further, a more comprehensive assessment of BOU’s largest
borrowing relationship—which primarily involved livestock loans—may have uncovered the bank’s
practice of using account overdrafts to keep the debt of certain borrowers within the relationship current.
In addition, the report of examination was not critical of BOU’s inadequate collateral inspections related
to livestock loans.




                                                      ii
   Executive Summary
                                     Material Loss Review of The Bank of Union,
                                     El Reno, Oklahoma                                                        T
                                                                                     Report No. AUD-14-010
                                                                                            September 2014

Following the February 2011 joint examination, BOU’s CEO assumed significant control over the
lending function after the departure of three senior lending officials, and the bank’s credit risk exposure
increased. The October 2012 examination identified substantial loan losses, significant financial
deterioration, and risky management practices that led to the OSBD promptly issuing an order against the
bank. Among other things, the order resulted in a $40 million capital injection and significantly limited
the bank’s ability to extend new credit, helping to expose the degree to which certain borrowers of the
bank, including its largest borrowing relationship, were unable to pay their debt. The regulators also
raised concern about the independence and reliability of collateral inspections related to BOU’s largest
borrowing relationship. In response, bank management obtained a new inspection in December 2012
covering much of the collateral supporting the relationship’s debt, although examiners later determined
that the inspection’s independence and reliability were questionable. These supervisory actions, however,
could not reverse the substantial losses already embedded in the bank’s loan portfolio, which led to the
bank’s failure.

The FDIC increased its supervisory monitoring and oversight of BOU following the October 2012
examination and, in June 2013, jointly issued a Consent Order with the OSBD against the bank. In
conjunction with the October 2013 examination, the FDIC performed a targeted review that identified
bank accounts administered by the CEO that were significantly and repeatedly overdrawn without proper
approval during 2011 and 2012. In some cases, funds from overdrafts were used to make payments on
existing loans and keep borrowers’ debt current, and new loans were subsequently made to pay borrower
overdrafts and service their debts. Such actions had the effect of clouding the financial condition of the
borrowers and the performance of their loans.

Under the FDIC’s forward-looking approach to bank supervision, which was re-emphasized to the FDIC
examination workforce in 2010, banks with weak risk management practices are subject to increased
supervisory analysis and a proactive supervisory response when risks are not properly managed. With
respect to BOU’s agricultural and C&I loans, including livestock loans, such a response could have
involved holding the Board and management to a stronger commitment to address the weak lending
practices identified during the February 2011 examination and more promptly following up to confirm
that collateral inspections were adequate.

On July 16, 2014, the FDIC issued Financial Institution Letter (FIL)-39-2014, entitled Prudent
Management of Agricultural Credits Through Economic Cycles. The FIL reminds FDIC-insured
institutions that engage in agricultural lending to maintain sound underwriting standards, strong credit
administration practices, and effective risk management strategies. These include, for example, analyzing
the overall financial status of borrowers, including secondary repayment sources and collateral support
levels; documenting all lien perfections; and conducting timely, independent collateral inspections. When
an institution fails to adequately implement these lending practices, as was the case with BOU, there is an
increased risk to the institution and, ultimately, the DIF.

Based on the supervisory actions taken with respect to BOU, the FDIC properly implemented the
applicable PCA provisions of section 38.




                                                    iii
   Executive Summary
                                     Material Loss Review of The Bank of Union,
                                     El Reno, Oklahoma                                                        T
                                                                                     Report No. AUD-14-010
                                                                                            September 2014


Management Response

Subsequent to the issuance of KPMG’s draft report, RMS and OSBD officials provided additional
information for our consideration, and KPMG revised its report to reflect this information, as appropriate.
In addition, the Director, RMS, provided a written response, dated September 5, 2014, to a draft of this
report. In the response, the Director reiterated the causes of BOU’s failure and the supervisory activities
described in the report. The Director also agreed that, in retrospect, it would have been prudent to have
followed up with the bank after the February 2011 joint examination to ensure that repeated concerns
relative to loan extensions, deferrals, and renewals were properly corrected. In addition, the Director
referenced guidance that was issued to FDIC-supervised institutions and examiners in 2010 and 2014
addressing prudent management practices for agricultural credits and described past and future examiner
training initiatives focused on the evaluation of bank risk management practices.




                                                    iv
Federal Deposit Insurance Corporation                                               Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     September 10, 2014

MEMORANDUM TO:                            Doreen R. Eberley, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Material Loss Review of The Bank of Union, El Reno, Oklahoma
                                          (Report No. AUD-14-010)


The subject final report is provided for your information and use. The report does not contain
recommendations, thus a response was not required. However, the Division of Risk
Management Supervision provided a written response dated September 5, 2014, to a draft of
the report. We incorporated the response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or
Mark Mulholland, Assistant Inspector General for Audits, at (703) 562-6316. We appreciate
the courtesies extended to the Office of Inspector General and contractor staff.

Attachment
                          Table of Contents

Part I

   Report by KPMG LLP                                           I-1
   Material Loss Review, The Bank of Union, El Reno, Oklahoma

Part II

   Corporation Comments and OIG Evaluation                      II-1

   Corporation Comments                                         II-2
      Part I

Report by KPMG LLP
                Material Loss Review
                 The Bank of Union
                El Reno, Oklahoma




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General

KPMG LLP
1676 International Drive
McLean, VA 22102
                           Table of Contents

Why a Material Loss Review Was Performed                              I-2

Background                                                            I-2

Causes of Failure and Material Loss                                    I-3
  Board and Management Oversight                                       I-4
  Loan Growth and Concentrations                                       I-6
  Lending Practices                                                  I-10
  Decline in the Loan Portfolio                                      I-13

The FDIC’s Supervision of The Bank of Union                          I-15
  Supervisory History                                                I-15
  Supervisory Response to Key Risks                                  I-19
  Implementation of PCA                                              I-25
  Supervisory Lessons Learned                                        I-27

Appendices
1: Objectives, Scope, and Methodology                                I-30
2: Glossary of Key Terms                                             I-33
3: Acronyms                                                          I-38

Tables
1: Selected Financial Information for BOU, 2008-2013                   I-3
2: BOU’s C&I and Agricultural Loan Concentrations                      I-7
3: BOU’s Adversely Classified Assets, 2008-2013 Examinations         I-14
4: Examination History of BOU, 2008-2013                             I-16
5: BOU’s Capital Ratios                                              I-26


Figures
1: Composition and Growth of BOU’s Loan Portfolio, 2007-2013           I-7
2: Borrower Exposure Relative to Legal Lending Limits, 2009-2013       I-9
3: BOU’s Total Risk-Based Capital and Growth Rate Compared to Peer   I-15
                             KPMG LLP
                             1676 International Drive
                             McLean, VA 22102




September 10, 2014

Stephen M. Beard
Deputy Inspector General for Audits and Evaluations
Federal Deposit Insurance Corporation, Office of Inspector General
3501 Fairfax Drive
Arlington, VA 22226

Material Loss Review of the Failure of The Bank of Union, El Reno, Oklahoma

Dear Mr. Beard:

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to
conduct a material loss review (MLR) of The Bank of Union (BOU or the bank), El Reno,
Oklahoma. The objectives of the MLR were to (1) determine the causes of BOU’s failure
and the resulting material loss to the Deposit Insurance Fund (DIF) and (2) evaluate the
FDIC’s supervision of BOU, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the Federal Deposit Insurance Act
(FDI Act). The enclosed report details the results of our review.

Consistent with the FDIC OIG’s approach of considering the circumstances and lessons
learned from individual bank failures in the broader context of other bank failures, our
report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG periodically
communicates those matters to FDIC management and makes recommendations, as
warranted.

We conducted our work as a performance audit in accordance with Generally Accepted
Government Auditing Standards. These standards require that we plan and conduct the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

The information included in this report was obtained during our fieldwork, which
occurred during the period March 2014 through July 2014.

Very truly yours,




                                                      I-1
                             KPMG LLP is a Delaware limited liability partnership,
                             the U.S. member firm of KPMG International Cooperative
                             (“KPMG International”), a Swiss entity.
Why a Material Loss Review Was Performed
Section 38(k) of the FDI Act, as amended, provides, in general, that if the DIF incurs a
material loss 1 with respect to an insured depository institution, the Inspector General of
the appropriate federal banking agency shall prepare a report to that agency that includes
a review of the agency’s supervision of the institution. The report is required to be
completed within 6 months of it becoming apparent that a material loss has been incurred.
Section 38(k) establishes an MLR threshold of $50 million for losses that occur on or
after January 1, 2014.

On January 24, 2014, the Oklahoma State Banking Department (OSBD) closed BOU, and
the FDIC was appointed receiver. The FDIC’s Division of Finance notified the OIG on
March 10, 2014, that BOU’s total assets at closing were $243.7 million and that the
estimated loss to the DIF was $70 million (or 29 percent of BOU’s total assets).
Accordingly, the FDIC OIG engaged KPMG to conduct an MLR, the objectives of which
were to (1) determine the causes of BOU’s failure and the resulting material loss to the
DIF and (2) evaluate the FDIC’s supervision of BOU, including the FDIC’s
implementation of the PCA provisions of section 38 of the FDI Act. 2 Appendix 1
contains additional information about our objectives, scope, and methodology;
Appendix 2 contains a glossary of key terms; and Appendix 3 contains a list of acronyms.

Background
BOU was chartered in 1900 in Union City, Oklahoma, and became insured by the FDIC
in 1959. In 1992, the bank opened an office in El Reno, Oklahoma, which is located
approximately 25 miles west of Oklahoma City. BOU relocated its main office to El
Reno in 2007 while maintaining a branch office in Union City. The bank also maintained
a loan production office in Oklahoma City.

BOU was a community bank that offered traditional banking services to local businesses
and consumers. Union City Corporation (UCC), a one-bank holding company, owned all
of BOU’s stock. UCC’s principal shareholders consisted of two siblings, each of whom
owned 41 percent of UCC’s stock. Neither sibling served on BOU’s Board of Directors
(Board). The Chairman of BOU’s Board, who also served as the bank’s President and
Chief Executive Officer (CEO)—herein referred to collectively as the CEO—until
November 2013, owned 15 percent of UCC’s stock. UCC’s remaining shares consisted
of treasury stock.


1
  Terms that are underlined when first used in this report are defined in Appendix 2, Glossary of Key Terms.
2
  In conducting this performance audit and preparing the report, KPMG relied primarily on BOU’s records
and on information provided by the FDIC OIG, the Division of Risk Management Supervision (RMS), and
the Division of Resolutions and Receiverships (DRR). Within the FDIC, RMS performs examinations of
FDIC-supervised institutions to assess their overall financial condition, management of policies and
practices, and compliance with applicable laws and regulations, as well as issues related guidance to
institutions and examiners. DRR has primary responsibility for resolving failing financial institutions and
managing the resulting receiverships.

                                                    I-2
BOU’s assets were centered in its loan portfolio, which had large concentrations in
commercial and industrial (C&I) and agricultural loans. As of November 8, 2013, C&I
and agricultural loans comprised 51 percent and 31 percent, respectively, of the bank’s
loan portfolio. Table 1 provides selected information pertaining to BOU’s financial
condition and operating results as of September 30, 2013, and for the 5 preceding
calendar years.

Table 1: Selected Financial Information for BOU, 2008-2013
     Financial Data             9/30/13         12/31/12        12/31/11         12/31/10        12/31/09       12/31/08
         ($000 )
 Total Assets                   $331,357        $382,120        $381,170         $341,182        $308,572       $233,810
 Total Loans                    $293,074        $316,718        $340,982         $290,386        $261,727       $177,165
 Annual Loan Growth
                                 (7.5%)*         (7.1%)           17.4%            11.0%          47.7%              23.1%
 Rate
 Total Deposits                 $328,774        $348,610        $344,190         $309,533        $282,912       $182,424
 Agricultural Loans/Total
                                1,031%**          151%            129%             136%            144%              150%
 Capital
 C&I Loans/Total Capital        3,088%**          383%            403%             357%            470%              351%
 Noncurrent Loans/Gross
                                 51.43%          14.37%           2.34%            1.96%          0.23%              0.49%
 Loans
 Net Interest Margin             0.28%*           4.91%           5.05%            4.90%          4.66%              4.20%
 Return on Average
                                (10.63%)*        (9.30%)          2.19%            2.29%          (0.33%)            0.37%
 Assets
Source: KPMG analysis of Uniform Bank Performance Reports (UBPR) for BOU.
* For the 9 months ending September 30, 2013.
** The significant increase in ratios is attributable to a precipitous decrease in capital rather than an increase
in loans.


Causes of Failure and Material Loss
BOU failed primarily because its Board and management did not effectively manage the
risks associated with the bank’s aggressive growth and concentrations in C&I and
agricultural loans, particularly in the livestock and trucking industries. Notably, BOU’s
lending function lacked adequate internal controls and sufficient seasoned loan officers to
effectively manage the growth and complexity of the loan portfolio. For example, BOU
lacked an adequate loan review function and credit grading system and frequently
extended, deferred, and renewed loans without fully assessing the borrowers’ ability to
repay or adequately inspecting collateral, when appropriate. BOU’s oversight and
management of account overdrafts was also inadequate. These inadequate internal
controls and certain actions of the CEO, as described later, clouded the true financial
condition of BOU’s loan portfolio. BOU also had a large and complex borrowing
relationship that was not adequately administered, exposing the bank to significant credit
risk and losses.

In general, BOU’s Board was not sufficiently engaged in overseeing the bank’s lending
strategies and practices. The Board also relied heavily upon the CEO, who exercised
significant control over the lending function after the departure of senior lending officials
in 2012 and made many of the decisions to originate and renew loans that were ultimately
                                                       I-3
charged off. Significant financial deterioration in BOU’s loan portfolio became apparent
in 2012, and by the close of the October 2013 joint examination, BOU’s past due and
nonaccrual loans totaled $157.8 million (or 54 percent of the loan portfolio). A
substantial portion of these loans consisted of livestock and trucking loans. The bank
recognized approximately $157.3 million in loan losses between January 2011 and the
bank’s failure, depleting its earnings and eroding its capital. The OSBD closed BOU on
January 24, 2014, due to the bank’s inability to raise sufficient capital to support safe and
sound banking operations.

Board and Management Oversight
The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the institution’s affairs. Executive officers, such as the President
and CEO and the Chief Financial Officer, have primary responsibility for managing the
day-to-day operations and affairs of the bank. Further, ensuring appropriate corrective
actions are taken in response to regulatory concerns is a key responsibility of the Board.

BOU’s Board and management did not provide effective oversight or supervision of the
bank’s critical business functions, particularly the lending function, and did not ensure
that internal controls and risk management practices were commensurate with the bank’s
risk profile. As described below, and in subsequent sections of this report, BOU’s Board
and management:

   •   Allowed the bank to engage in rapid loan growth and develop concentrations in
       livestock and trucking loans without adequate risk management practices. The
       risk associated with these loans was further elevated by the bank’s exposure to a
       large and complex borrowing relationship that lacked adequate underwriting and
       administration.

   •   Did not adequately underwrite, administer, or monitor its loans. Among other
       things, BOU’s management did not establish and implement adequate internal
       controls over the lending function, such as an independent loan review process,
       and frequently extended, deferred, and renewed loans without fully assessing the
       borrowers’ ability to repay or adequately inspecting collateral.

   •   Failed to fully address regulatory recommendations dating back to 2010, including
       repeat concerns pertaining to the bank’s concentration risk management practices
       and liberal loan renewals and extensions.

   •   Failed to appropriately identify, measure, and provide for the level of deterioration
       in the bank’s loan portfolio.


                                             I-4
   •   Did not maintain capital at levels that were commensurate with the bank’s risk
       profile.

An FDIC targeted review conducted in conjunction with the October 2012 examination
found that BOU’s CEO was the controlling manager over the bank and delegated little
authority to other management team members. The review also found that Board meeting
minutes indicated that the Board generally ratified matters presented to the directors and
rarely opposed or probed the bank’s policies, procedures, or credit decisions. In addition,
the CEO occasionally presented information to the Board about certain borrowing
relationships and the bank’s overall lending strategy, but in some cases subsequent
management actions would deviate from the materials presented. For example, the CEO
reported to the Board in June 2010 that the bank’s exposure to cattle lending would be
lowered. The CEO also reported in October 2010 that certain bank customers had been
notified that cattle lending would be significantly reduced in 2011. However, the bank’s
lending in the cattle industry actually increased substantially in 2011 and 2012.

The Report of the Study of the Management and Staffing of The Bank of Union and
Proposed Management Plan, prepared by an outside consultant on behalf of BOU in
November 2013, described weaknesses in the Board’s oversight, and the CEO’s
management, of the bank’s lending function. The report, which was required by a
Consent Order issued by the FDIC and OSBD in June 2013, stated, among other things,
that:

   •   The bank did not have the requisite number of seasoned loan officers required to
       effectively manage the loan portfolio. This was particularly evident for the bank’s
       non-performing loans, for which BOU did not have a sufficient number of
       experienced loan workout officers. Further, the expansion of the bank between
       2008 and 2012 required the management capabilities and focus of a larger and
       more competent lending function.

   •   Information in the bank’s UBPR regarding rapid growth in the loan portfolio and
       related information indicated possible future problems regarding loan
       management and oversight capacities and practices within the bank. The study
       stated that growth in the loan portfolio would have indicated a corresponding need
       to strengthen the bank’s lending staff, loan policies, credit analysis, and exception
       management. Further, the bank’s reported earnings likely masked issues that
       should have been raised and considered by the Board and management.

   •   While Board members appeared to have the requisite knowledge and business
       experience to discharge their duties, they did not have specific banking experience
       (with the exception of one director), especially in the area of sophisticated loan
       administration. Consequently, Board members may not have completely
       recognized the risk that accompanied the bank’s growth or required discussions
       and decisions regarding such growth. According to the study, a lack of summary
       analytical reports routinely presented to the Board appears to have further
       hampered effective oversight of the bank, including the loan portfolio.

                                            I-5
   •   Trust was placed in certain borrowers that was not substantiated by credible
       financial information and independent inspections of collateral.

   •   The CEO’s compensation appeared to be high as a result of a determination by
       outside Board members that was based mainly on the apparent earnings from the
       bank’s expansion.

   •   The bank should appoint a new President and CEO.

Loan Growth and Concentrations
BOU pursued an aggressive loan growth strategy centered in C&I and agricultural
lending in the years before the institution’s financial decline. During the 4-year period
ended December 31, 2011, the bank’s total loan portfolio grew by 137 percent.
According to a third-party loan portfolio valuation performed in December 2013, most
of the bank’s C&I loans were made to rural cattle ranching and trucking businesses and
were generally secured by assets such as livestock, equipment, single-family residences,
and oil and gas leases. The bank’s agricultural loans were made to cattle and farming
operations and were primarily secured by livestock, ranch land, and trucking and
farming equipment.

BOU’s loan growth significantly exceeded the bank’s internal projections. For
example, BOU projected that its loan portfolio would grow by 2 percent in 2010.
However, the loan portfolio actually grew by 11 percent that year. Further, while
BOU’s internal projections in 2010 indicated that growth would be substantially
reduced based upon then-current trends and management’s goals and objectives, BOU’s
loan portfolio grew another 17 percent in 2011. Figure 1 illustrates the general
composition of BOU’s loan portfolio in the years preceding the institution’s failure.




                                            I-6
Figure 1: Composition and Growth of BOU’s Loan Portfolio, 2007-2013
                              $400.0
                              $350.0                                       $341
                                                                                    $317
                                                                  $291                       $293
                              $300.0

            ($ in millions)
             Gross Loans
                                                          $262
                              $250.0
                              $200.0           $177
                              $150.0   $144
                              $100.0
                               $50.0
                                 $-
                                  2007         2008 2009 2010              2011     2012     2013
        All Other Loans           $54.0        $58.6 $69.0 $76.1          $77.7    $67.9    $58.2
        Agricultural Loans        $14.7        $28.4 $35.7 $46.9          $52.5    $56.0    $47.4
        Commercial and Industrial $55.7        $66.4 $116.3 $122.8        $164.3   $141.9   $142.0
        Other CRE                 $17.5        $21.6 $30.3 $30.5          $32.6    $33.2    $39.6
        ADC                       $2.0         $2.1 $10.4 $14.2           $13.9    $17.7     $5.9
Source: KPMG analysis of Call Reports for BOU.
Note: Dollar amounts are as of calendar year end, except for 2013, which are as of September 30, 2013.
Totals may not match sum of loan categories due to rounding.

As shown in Table 2, BOU’s concentrations in C&I and agricultural loans relative to
total capital were high. 3 However, the bank’s concentration risk management practices
were not adequate, exposing the bank to elevated credit risk. For example, reports of
examination issued from 2010 to 2013 stated that BOU’s lending policy did not
adequately address concentration monitoring controls and requirements and did not
establish Board-approved limits or acceptable levels of concentration in relation to the
bank’s capital levels.

Table 2: BOU’s C&I and Agricultural Loan Concentrations
    Year-End        C&I Loans as a Percentage of      Agricultural Loans as a Percentage of
                           Total Capital                           Total Capital
     2008                       351%                                     150%
     2009                       470%                                     144%
     2010                       357%                                     137%
     2011                       403%                                     129%
     2012                       383%                                     151%
Source: KPMG analysis of UBPRs for BOU.

As described below, the risk associated with BOU’s loan concentrations was
exacerbated by large and complex borrowing relationships that lacked adequate
underwriting and administration.



3
  The FDIC defines concentrations as obligations representing 100 percent of Tier 1 Capital by industry,
product line, or collateral type, as well as 25 percent or more of Tier 1 Capital to an individual or
interrelated group of borrowers.

                                                    I-7
Large Borrowing Relationships

The October 2012 report of examination identified seven borrowing relationships that
collectively totaled $98.8 million (or 317 percent of the bank’s Tier 1 Capital). Five of
these relationships totaling $78.5 million were either adversely classified or listed as
special mention in the report of examination, exposing the bank to significant credit
risk.

One of the large borrowing relationships was particularly risky. Specifically, the bank
made numerous loans to various entities controlled by a group of three related
borrowers who had a longstanding relationship with the bank. BOU’s lending to this
group of borrowers began as cattle loans but later expanded to include trucking loans.
At the time of the January 2010 FDIC examination, the borrowing relationship
accounted for 101 percent of the bank’s Tier 1 Capital. The bank’s exposure to the
relationship continued to expand and the concentration grew to 188 percent of
Tier 1 Capital at the October 2012 FDIC examination. As of December 2013, the
borrowing relationship consisted of 73 loans totaling $51.3 million (or 17.8 percent of
the bank’s total loan portfolio).

Figure 2 illustrates BOU’s exposure to the relationship relative to the bank’s legal
lending limits from 2009 to 2013. Examiners cited the bank for apparent violations of
the Oklahoma Banking Code relative to limitations on maximum indebtedness at the
2012 and 2013 examinations, reflecting negatively on the Board and management’s
ability to operate the bank in a safe and sound manner. 4




4
  Examiners determined that while the borrowing entities did not exceed the legal lending limit on an
individual basis, the relationship between the individuals and their respective companies met the “common
enterprise” definition as stated in the “Summary of Lending Limit Rules for State Chartered Banks”
provided by the OSBD. While the bank’s total borrower exposure appears to have exceeded the legal
lending limits prior to 2012, it is unclear whether the borrower relationship met the “common enterprise”
definition during that timeframe.

                                                   I-8
Figure 2: Borrower Exposure Relative to Legal Lending Limits, 2009-2013
                            $70.0
                                                                            $58.7
                            $60.0
                                                                                               $52.4
                            $50.0
          ($ in millions)



                            $40.0
                                                           $29.0
                            $30.0
                                      $21.6
                            $20.0

                            $10.0

                              $-
                                      9/30/09           12/31/10           9/30/12            6/30/13
           Borrower 1                   $7.5              $9.9              $21.4              $20.7
           Borrower 2                   $6.8              $9.6               $8.2               $4.7
           Borrower 3                   $7.3              $9.5              $29.2              $27.0
           Legal Lending Limit          $7.3             $10.3              $14.5              $16.5
Source: Borrower exposure levels are based on KPMG analysis of reports of examination for BOU. Legal
lending limit amounts are based on KPMG analysis of Call Reports for BOU.
Note: Borrower exposure levels and the bank’s legal lending limit amounts are based on the examination
as-of dates for the years listed. Some totals may not agree due to rounding.

The October 2012 report of examination described a number of serious concerns related
to the administration of this borrowing relationship. Among other things, the report
noted that BOU frequently renewed the loans without obtaining independent and
reliable collateral inspections, adequate financial information on the borrowers and their
businesses, or the approval of the bank’s Board. In addition, BOU often capitalized
interest when renewing loans without reducing principal. 5 Further, lien searches
performed by the FDIC in late 2012 found that the bank’s position may have been
subordinate to other parties and that the net worth of the borrowers failed to provide a
secondary source of repayment.

In December 2012, BOU reportedly obtained a collateral inspection for the cattle
securing much of the relationship’s debt. However, the October 2013 joint examination
report questioned the legitimacy of the inspection and cited repeat concerns regarding
the bank’s administration of the relationship. Examiners concluded that it was highly
probable that BOU was financing the operating losses of the borrowers’ businesses
based, in part, on the bank’s financing of large overdrafts, frequent renewals of short-
term notes, and capitalizing interest. Based on the severe delinquency of the
relationship and management’s failure to verify the bank’s collateral position, examiners
considered $50.7 million (or 97 percent of the relationship) as a loss. This loss

5
 Capitalizing interest on a loan increases the bank’s credit risk exposure because it serves to increase debt
without a corresponding increase in the collateral that secures the loan.

                                                     I-9
represented 43 percent of the $118.2 million in total loan losses identified by examiners
during the October 2013 joint examination.

Lending Practices
Poor loan underwriting, administration, and monitoring were significant factors in the
asset quality problems that developed at BOU. As previously stated, BOU’s expansion in
the years preceding its financial decline required the management capabilities and focus
of a larger and more competent lending function. Notably, BOU’s efficiency ratio placed
the bank in the top 5 percent of its peer group from 2009 to 2012. 6 Such ratios indicate
that BOU was able to maintain low overhead expenses in relation to its revenue and may
have been a leading indicator that key business operations, such as the lending function,
were not being adequately resourced to support the bank’s aggressive growth strategy.

The Examination Manual indicates that agricultural lending requires many of the same
fundamental underwriting standards as other forms of lending, while also involving some
unique requirements that warrant emphasis. Items pertinent to agricultural lending
include the availability of sufficient financial information to make an informed credit
decision, adequate loan structure that correlates to the purpose of the credit, sufficient
collateral support, and sufficient cash flow analysis. The Examination Manual also
highlights aspects of prudent loan administration, including the importance of periodic
on-site inspections, verifications, and documentation of pledged collateral, as well as
adequate procedures to ensure sales proceeds of the collateral are applied to the
associated debt. With respect to renewing agricultural loans, the Examination Manual
states that banks must take prudent steps to ensure loans are paid on an appropriate basis
and highlights the importance of the borrower’s financial strength and current inspection
reports to support credit decisions.

Further, the FDIC’s Financial Institution Letter (FIL), entitled Prudent Management of
Agricultural Credit Through Farming and Economic Cycles (FIL-85-2010, dated
December 14, 2010), states that financial institutions engaging in agricultural lending
should implement a prudent credit risk management process. Such a process should place
strong emphasis on borrower cash flow and repayment capacity and not place undue
reliance on collateral for repayment.

As discussed below, BOU’s management did not adequately manage or administer the
loan portfolio and engaged in risky lending practices in the years leading up to the bank’s
failure. Examiners identified loan administration weaknesses as early as the January
2010 FDIC examination. However, BOU’s Board and management did not fully address
those concerns. Subsequent examinations became increasingly critical of BOU’s lending


6
 For 2008, BOU’s peer group consisted of insured commercial banks having assets between $100 million
and $300 million, with two or fewer full-service banking offices and located in a metropolitan statistical
area. For 2009 to 2013, BOU’s peer group consisted of insured commercial banks having assets between
$300 million and $1 billion.


                                                   I-10
practices as the bank’s financial deterioration and weak risk management practices
became more apparent and widespread.

Loan Extensions, Deferrals, Renewals, and Capitalization of Interest

The January 2010 report of examination raised concerns about BOU’s liberal loan
extensions, deferrals, and renewals and its practice of capitalizing interest. The report
noted that such practices can cloud the true performance and delinquency status of the
loan portfolio. Concerns about loan extensions, deferrals, and renewals were reiterated in
the February 2011 report of examination. The October 2012 report of examination stated
that management had concealed performance weaknesses in the loan portfolio through
liberal loan extensions and renewals, and the capitalization of interest. The report also
recommended that $40.7 million in loans be classified as nonaccrual. In addition, the
report identified a number of loan underwriting weaknesses, including:

   •   a lack of comprehensive financial analysis, including global cash flow analysis, of
       borrowers’ ability to repay;

   •   a failure to establish and enforce well-defined repayment programs consistent with
       borrower cash flow and repayment capacities;

   •   extensions or renewals of credit to inadequately capitalized businesses and
       borrowers lacking sufficient equity positions in pledged collateral; and

   •   an over-reliance on collateral to repay loans.

Further, the FDIC’s targeted review conducted in 2012 found that BOU’s CEO routinely
granted new loans, renewals, and extensions of credit without evidence of Board approval
and, in some cases, in contravention of the bank’s policy regarding the CEO’s lending
authority and the bank’s legal lending limit.

Management of Overdrafts

The October 2012 report of examination stated that BOU’s oversight and management of
overdrafts was “non-existent” and classified overdraft accounts aggregating $1.3 million
as loss. Examiners recommended that BOU establish prudent monitoring procedures to
limit habitual overdrafts on problem accounts and charge off problem accounts at least
quarterly. In addition, although BOU’s policy was to require dual approval of overdrafts
exceeding $5,000, the policy was not followed. A targeted review of overdrafts by the
FDIC in December 2013 found that accounts administered by the CEO were significantly
and repeatedly overdrawn without proper approval during 2011 and 2012. In some cases,
funds from overdrafts were used to make payments on existing loans and keep borrowers’
debt current, and new loans were subsequently made to pay borrower overdrafts and
service their debts. Such actions had the effect of clouding the financial condition of the
borrowers and the performance of their loans.



                                           I-11
The June 2013 Consent Order limited customer overdrafts to $5,000 and effectively
ended BOU’s liberal overdraft practices. As a result, certain borrowers were no longer
able to keep their debt current and substantial charge-offs of interest occurred. Based on
our review of BOU’s records, it appears that frequent overdrafts for one of the borrowers
in the large lending relationship described earlier date back to at least 2009, as evidenced
by large overdraft fees for the borrower during that period.

Loan Monitoring and Allowance for Loan and Lease Losses Methodology

BOU lacked an adequate loan review function and credit grading system. As a result, the
bank experienced numerous and large credit downgrades during examinations. The
January 2010 report of examination recommended that BOU address weaknesses in the
bank’s credit grading system, and the February 2011 report of examination stated that
BOU’s loan review function was not being effectively implemented, as evidenced by the
continued identification of adversely classified assets by examiners. Examiner concerns
with BOU’s loan review function continued during the October 2012 FDIC examination,
wherein more than 96 percent of the $108.6 million in adversely classified loans
identified by examiners had not been internally identified by the bank. BOU’s Board was
instructed during the October 2012 and October 2013 examinations to establish a
comprehensive written loan review system that would promptly identify loans with credit
weaknesses, identify trends and potential problem areas, verify the accuracy and
timeliness of internal credit grades, and provide other essential information for
determining the appropriateness of the Allowance for Loan and Lease Losses (ALLL).

According to the Interagency Policy Statement on the Allowance for Loan and Lease
Losses, the ALLL represents one of the most significant estimates in an institution’s
financial statements and regulatory reports. As a result, each institution is responsible for
developing, maintaining, and documenting a comprehensive, systematic, and consistently
applied process for determining the ALLL. Examiners noted during the October 2012
FDIC examination that BOU’s ALLL methodology was inadequate and determined that
an additional provision of $49.4 million was necessary to restore the ALLL to a
minimally acceptable level. Examiners noted repeat weaknesses in the ALLL
methodology during the October 2013 joint examination and determined that an
additional provision of $96.9 million was needed to restore the ALLL to an appropriate
level.

Credit Administration

The Examination Manual states that the nature of asset-based lending in the agricultural
industry requires a high level of administration and oversight to ensure the viability and
collectability of the loans. Further, maintaining current and complete borrower financial
information and collateral valuations is critical to assessing the credit-worthiness of
borrowers and making informed credit decisions.

The January 2010 report of examination stated that loan files for 59 percent of the total
volume of loans reviewed by examiners lacked certain relevant documentation. The
majority of exceptions related to a lack of current financial information on borrowers.

                                            I-12
Subsequent reports of examination continued to criticize BOU’s management for failing
to obtain current financial information for many of its loans. In addition, a third-party
loan portfolio valuation performed in December 2013 identified loans collateralized by
inventory, such as livestock, vehicles, and mobile homes, that lacked any evidence of
monitoring or surveillance. The portfolio valuation also found that loan files lacked
credit origination memoranda to substantiate the bank’s lending decisions and document
the borrower’s financial status and the value of collateral. Further, although much of the
C&I portfolio was collateralized by business inventory, loan files rarely contained
collateral listings or valuations.

Our review of selected loans identified many of the same loan underwriting and credit
administration weaknesses cited by regulators in the final years of BOU’s operations.
Among other things, our review identified loan files that contained collateral “listings”
that appeared to be prepared by the borrower but did not contain independent,
professional collateral inspections or documentation supporting collateral values. In
addition, financial information was often prepared by the borrower, was out-of-date,
and/or did not evidence analysis of the borrower’s ability to repay the loans. It was not
until November 2012 that BOU’s Board minutes noted a change in bank policy requiring
annual financial statements prepared by Certified Public Accountants for certain
borrowers and more extensive supporting documentation for livestock inspections.

Decline in the Loan Portfolio
The extent of credit losses and impaired financial condition of BOU’s loan portfolio
became apparent in 2012, as reflected in the increase of past due and nonaccrual loans
from $8.8 million at year-end 2011 to $87.5 million at year-end 2012. By the close of
the 2013 joint examination, BOU’s past due and nonaccrual loans totaled
$157.8 million, the majority of which was comprised of agricultural and C&I loans
primarily secured by livestock. Based on our analysis of documentation pertaining to
BOU’s failure, we determined that the bank charged off approximately $157.3 million
in loans from January 2011 until the bank’s failure. Approximately $125.3 million (or
80 percent) of that amount related to loans originated or renewed in the time period
between April 2011 and the issuance of the Consent Order in June 2013. 7

Table 3 reflects BOU’s adversely classified assets as reported by each of the five
examinations that were performed from 2008 to 2013. Notably, only $2.5 million of the
approximately $101 million in additional adverse loan classifications identified by
examiners during the October 2012 examination consisted of new credit extensions.
The remainder consisted of existing borrower relationships that had not been previously
classified or had been classified less severely.




7
 As discussed later in this report, the FDIC and OSBD terminated a then-existing Memorandum of
Understanding (MOU) with the bank in April 2011.

                                                I-13
Table 3: BOU’s Adversely Classified Assets, 2008-2013 Examinations
    Classification      June          January             February         October           October
        ($000s)          2008           2010                2011            2012              2013
    Substandard         $1,758         $5,468              $9,028          $71,228           $39,662
    Doubtful              $0              $0                 $96               $0              $5,918
    Loss                 $10             $986               $179            $38,783          $118,208
    Total               $1,768          $6,454             $9,303          $110,011          $163,788
Source: KPMG’s analysis of reports of examination for BOU.

Capital Levels Relative to Loan Growth

The Examination Manual states that institutions should maintain capital commensurate
with the level and nature of risks to which they are exposed and the ability of
management to identify, measure, monitor, and control those risks. Further, the amount
of capital necessary for safety and soundness purposes may differ significantly from the
amounts needed to maintain a Well Capitalized or Adequately Capitalized position for
purposes of PCA.

BOU relied on one of UCC’s principal shareholders for capital support during the period
covered by our review. For example, the shareholder made capital injections of
$5 million and $40 million in January 2010 and December 2012, respectively, to help
cover the bank’s losses and maintain its Well Capitalized position.8 Nevertheless, BOU
did not maintain capital at levels that were commensurate with its risk profile. Figure 3
reflects the trends in BOU’s Total Risk-Based Capital ratios and annual growth rates
relative to peer for the 4-year period ending December 31, 2011. As reflected in the
figure, the bank’s capital ratios were consistently below peer despite the bank having a
growth rate that was significantly above peer. As mentioned earlier, BOU also had high
concentrations in C&I and agricultural loans. Had BOU maintained higher capital levels,
loan growth may have been constrained and losses to the DIF may have been mitigated to
some extent.




8
  As described later, BOU purchased complex structured credit products called collateralized mortgage
obligations (CMO) in 2008. Although not considered a capital injection, the shareholder significantly
reduced the bank’s risk exposure to the CMOs by purchasing a resecuritization of the securities in 2009.

                                                   I-14
Figure 3: BOU’s Total Risk-Based Capital and Growth Rate Compared to Peer

                     100
                     90
                     80
                     70
   Bank Percentile




                     60
                     50
                     40
                     30
                     20
                     10
                      0
                               2008                   2009            2010               2011


                           Total Risk-Based Capital           Net Loans & Leases Growth Rate

Source: KPMG’s analysis of UBPRs for BOU.


The FDIC’s Supervision of The Bank of Union
The FDIC, in coordination with the OSBD, provided ongoing supervisory oversight of
BOU through regular on-site examinations, visitations, targeted reviews, and various
offsite monitoring activities. Through its supervisory efforts, the FDIC identified risks in
the bank’s operations as early as 2008 and brought these risks to the attention of the
institution’s Board and management through examination reports, a visitation report,
correspondence, and informal and formal enforcement actions. Such risks included
inadequate Board and management oversight of the bank’s complex structured credit
products, lending activities (including loan administration and monitoring), and the
decline in the loan portfolio. In retrospect, BOU’s agricultural and C&I lending activities
warranted an elevated level of scrutiny and a more proactive supervisory response to
address the associated risks. The following sections detail BOU’s supervisory history,
the pursuit of enforcement actions, offsite monitoring activities, the supervisory response
to key risks, the FDIC’s compliance with PCA, and supervisory lessons learned.

Supervisory History
From June 2008 until BOU’s closing in January 2014, the FDIC and OSBD conducted
five on-site examinations and one visitation of BOU. Except for a relatively minor delay
in starting the October 2012 FDIC examination, the frequency of these on-site
examination activities was consistent with relevant statutory and regulatory


                                                             I-15
requirements. 9 Table 4 summarizes key supervisory information pertaining to BOU’s
examinations and visitation.

Table 4: Examination History of BOU, 2008-2013
                                                           Supervisory
    Examination     Examination                              Ratings             Informal or Formal
     Start Date     or Visitation      Regulator(s)          (UFIRS)                Action Taken*
     6/23/2008       Examination            OSBD             112122/2                     None
                                                                                FDIC and OSBD MOU
     1/11/2010       Examination            FDIC             223233/3
                                                                                  Effective 4/9/2010
                                                             No Rating
      8/9/2010         Visitation           Joint                               MOU Still Outstanding
                                                             Changes
                                                                              MOU Terminated Effective
      2/7/2011       Examination            Joint            222122/2
                                                                                     4/20/2011
                                                                               OSBD Order Directing
                                                                               Restoration of Capital
                                                                                Effective 12/14/2012
     10/29/2012      Examination            FDIC             455433/4
                                                                               FDIC and OSBD Consent
                                                                                        Order
                                                                                 Effective 6/12/2013

                                                                                 OSBD Consent Order
                                                                                 Effective 11/21/2013
     10/7/2013       Examination            Joint            555555/5
                                                                               FDIC and OSBD Consent
                                                                                Order Still Outstanding
Source: KPMG’s analysis of reports of examination and visitation reports and information in the FDIC’s
Virtual Supervisory Information on the Net (ViSION) for BOU.
* Informal actions often take the form of a Bank Board Resolution or MOU. Formal enforcement actions
often take the form of a Cease and Desist Order, Consent Order, or PCA Directive.

Pursuit of Enforcement Actions

Based on the results of the January 2010 FDIC examination, the FDIC and OSBD entered
into an MOU with BOU’s Board that became effective on April 9, 2010. The purpose of
the MOU was to address the concerns raised at the 2010 examination, including the
bank’s management and accounting treatment of its investments in complex structured
credit products and weaknesses in the bank’s credit administration and lending practices.
Among other things, the MOU included provisions wherein BOU’s Board agreed to:

      •   maintain a Well Capitalized position, including a minimum Tier 1 Leverage
          Capital Ratio of 8 percent;




9
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state non-member bank at least once during every
12-month period. The regulation allows the annual examination interval to be extended to 18 months for
certain small institutions (i.e., total assets of less than $500 million) if certain conditions are satisfied.

                                                    I-16
   •   review its objectives relative to asset growth with consideration of the bank’s
       liquidity and capital positions;

   •   revise the Asset Liability Management Policy to address the deficiencies and
       recommendations in the January 2010 report of examination and implement
       procedures for monitoring the bank’s sensitivity to market risk exposure;

   •   establish a plan that would improve the bank’s liquidity posture and minimize
       dependency on volatile funding sources;

   •   amend the Investment Policy to address outstanding accounting guidance;

   •   increase the ALLL to the level recommended in the January 2010 report of
       examination and maintain the ALLL at a level that is sufficient for the risk
       exposure in the loan portfolio; and

   •   improve credit administration practices to address the deficiencies noted in the
       January 2010 report of examination.

In August 2010, the FDIC and OSBD conducted a joint visitation to assess the condition
of BOU, management’s response to the recommendations and contraventions of
Statements of Policy noted at the January 2010 FDIC examination, and progress in
addressing the provisions of the MOU. The visitation report stated that the overall
condition of BOU was improving and that management was taking the necessary steps to
achieve the goals of the MOU. However, the report also noted that some MOU
provisions had not been fully addressed, including the provision related to credit
administration practices and examination concerns on lending policy practices involving
loan extensions and deferrals, the credit grading system, and concentration monitoring.

The February 2011 report of examination stated that BOU’s overall condition reflected
significant improvement and was satisfactory. In addition, BOU was found to be in
substantial compliance with the MOU, although the bank had not fully addressed its
credit administration weaknesses. Based on the results of the examination, the MOU was
terminated effective April 20, 2011.

The October 2012 report of examination identified significant financial deterioration and
the OSBD issued a formal Order against BOU on December 14, 2012. Among other
things, the Order required BOU to charge-off all losses identified during the examination
and increase equity capital in the amount of $40 million by December 31, 2012. The
Order also imposed certain restrictions on extensions of credit greater than $25,000. The
FDIC and OSBD also issued a Consent Order based on the results of the October 2012
FDIC examination. The Consent Order, which became effective on June 12, 2013 and




                                           I-17
remained in effect until the bank was closed in January 2014, required BOU’s Board to
(among other things):

   •   submit and adopt a written Capital Plan, a plan reducing classified assets, and a
       plan to reduce and collect delinquent loans;

   •   charge off or collect assets classified as loss;

   •   restrict advances to criticized borrowers;

   •   submit a written policy on extensions of credit, including restrictions on overdrafts
       exceeding $5,000 (unless reviewed and approved by the Board or loan
       committee);

   •   conduct an annual review of the loan policy by the Board and submit to the
       regulators for review any changes made to the loan policy;

   •   establish a loan review committee to periodically review the bank’s loan portfolio
       and identify and categorize problem credits;

   •   correct deficiencies with loans listed as Special Mention and correct technical
       exceptions noted during the October 2012 FDIC examination;

   •   implement a system of monitoring and correcting loan documentation exceptions;

   •   restrict asset growth to no more than 5 percent during any consecutive 6-month
       period (unless otherwise approved by regulators);

   •   increase Board participation in the affairs of the bank;

   •   assess staffing needs and retain qualified management; and

   •   refrain from entering into new lines of business.

During the October 2013 joint examination, examiners determined that BOU had incurred
significant loan losses and engaged in unsafe and unsound banking practices. As a result,
the Oklahoma State Banking Commissioner issued an Order to Cease and Desist Unsafe
and Unsound Banking Practices and to Restore Capital on November 21, 2013.
Examiners also determined during the examination that BOU had not complied with
many provisions of the June 2013 Consent Order.

Offsite Monitoring

The FDIC has established an offsite review program intended to identify emerging
supervisory concerns and potential problems so that supervisory strategies can be




                                             I-18
adjusted appropriately. 10 Under the program, offsite reviews are performed by FDIC case
managers each quarter for banks that appear on the Offsite Review List (ORL). For the
5-year period ended December 31, 2013, BOU appeared on the ORL four times—in
September and December 2009, December 2011, and March 2012.

Both the December 2011 and March 2012 reviews were triggered by rapid asset growth.
Specifically, BOU experienced total asset growth of 12 percent for the 1-year periods
ending December 2011 and March 2012. Loan growth increases during those periods
were 17 percent and 19 percent, respectively. The December 2011 review noted that the
bank’s growth was primarily in commercial loans funded by an increase in core deposits.
The review did not indicate a significant change in the bank’s condition. RMS contacted
BOU when it was flagged again for rapid asset growth in March 2012. Bank
management indicated that the rapid growth was due to an oil and gas boom in the area
that had added 2,000 to 3,000 local jobs and an influx of deposits and increased loan
demand. According to RMS, the bank’s explanation was both plausible and consistent
with the experience of other banks in the local area. As a result, RMS concluded that
there was no cause to change its normal supervisory program for BOU.

Supervisory Response to Key Risks
In the years preceding BOU’s failure, the FDIC, in coordination with the OSBD,
identified risks in the bank’s operations and brought these risks to the attention of the
institution’s Board and management through examination and visitation reports,
correspondence, and recommendations. In addition, the FDIC and/or OSBD entered into
an MOU with BOU’s Board in April 2010, issued an Order Directing Restoration of
Capital in December 2012, issued a Consent Order in June 2013, and issued another
Consent Order in November 2013. A summary of supervisory activities related to BOU’s
key risks follows.

2008 Supervisory Activities

Examiners determined at the June 2008 OSBD examination that BOU’s overall condition
was satisfactory. However, the examination report noted concerns regarding BOU’s
then-recent purchase of complex CMOs totaling $5.2 million as of March 31, 2008.
Examiners noted that the bank’s funds management policies were insufficient to
adequately manage the risk inherent in the investment securities. Examiners also cited an
apparent contravention of both the 1996 Joint Agency Policy Statement on Interest Rate
Risk and the 1998 Supervisory Policy Statement on Investment Securities and End-User
Derivatives Activities. With respect to asset quality, examiners noted that although the
dollar amount of adversely classified assets had increased since the prior examination,
management had a proven track record for handling asset quality issues in a satisfactory
manner. Despite the concerns with the CMOs, examiners considered BOU to be in

10
  The program includes the use of various offsite monitoring tools to help assess the financial condition of
institutions. The tools use statistical techniques and Call Report data to identify potential risks, such as
institutions likely to receive a supervisory downgrade at the next examination or institutions with rapid
growth and/or a funding structure highly dependent on non-core funding sources.

                                                    I-19
satisfactory condition and management was noted to have generally provided adequate
oversight.

2010 Supervisory Activities

Examiners determined at the January 2010 FDIC examination that BOU’s overall
condition was less than satisfactory. Board and management performance, risk
management practices, controls over sensitivity to market risk, liquidity levels, and funds
management practices were all in need of improvement. Of particular note, the bank had
consummated a complex financial transaction wherein it sold its CMOs to a trust and
(together with one of the bank’s principal shareholders) purchased an equity interest in
the trust. The bank’s handling of the transaction resulted in repeat apparent
contraventions of agency policy, along with accounting issues. Amendments to BOU’s
Call Reports dating back to December 2008 were required to address Other-Than-
Temporary Impairment charges associated with the CMOs, inaccurate risk weightings for
the securities, and an overstatement of accrued and capitalized interest.

Examiners identified several loans that were extended without full collection of interest
due or that involved the capitalization of interest that was added to the balance of the
note. Examiners strongly cautioned the Board against the liberal use of extensions,
deferrals, and renewals as a permissive policy, adding that it could cloud the true
performance and delinquency status of the loan portfolio. Examiners recommended
improvements to the bank’s lending policy and practices to address this matter.
Examiners also recommended certain improvements to the bank’s credit grading system
and efforts to establish and monitor acceptable levels of concentrations. Examiners
determined that the Adversely Classified Coverage Ratio had increased to 26 percent
(compared to 8 percent at the prior examination) and noted a lack of current income
information in certain loan files. Nevertheless, examiners determined that BOU’s Asset
Quality remained satisfactory and that BOU’s management was considered capable of
overseeing the volume of criticized loans. Further, examiners noted that the bank’s
methodology for calculating the adequacy of the ALLL needed to be expanded to
encompass economic and qualitative factors and that an additional provision of
$1.5 million was needed to cover anticipated loan and lease losses.

While BOU’s capital ratios continued to decline due to asset growth outstripping earnings
retention, examiner concerns regarding capital adequacy were mitigated because of a
$5 million capital injection provided by one of UCC’s principal shareholders. Based on
the results of the examination, the FDIC downgraded each CAMELS component rating
and the composite rating from the prior examination. The FDIC, working in coordination
with the OSBD, also proposed an MOU to BOU’s Board that became effective in
April 2010.

The FDIC and OSBD conducted a joint visitation in August 2010 to assess BOU’s
financial condition as well as its progress in addressing the recommendations in the
January 2010 report of examination and the provisions of the MOU. The visitation report
noted that the bank’s overall condition was improving as a result of capital protection
enhancements, strong earnings relative to peer, asset quality improvement and growth
                                           I-20
moderation, and a reduction in volatile liabilities. Examiners noted that management had
acted on almost all of the recommendations in the January 2010 report of examination
and the examiners were generally satisfied with the bank’s progress in addressing the
provisions of the MOU. However, examiner recommendations related to loan extensions
and deferrals, the credit grading system, and concentration monitoring efforts had not
been addressed.

2011 Supervisory Activities

The February 2011 joint examination focused primarily on BOU’s management and
accounting treatment for its structured credit products and the related impact on the
bank’s sensitivity to market risk. The examination also focused on management’s
progress in addressing the provisions of the MOU and assessing asset quality. Examiners
determined that BOU’s overall condition had improved significantly and was satisfactory.
Examiners also noted that management’s responses to regulatory concerns had been
prompt and BOU was in substantial compliance with the MOU, although several
provisions had not been fully addressed, including the credit administration issues.
Although the bank’s Loan Administration Department had been strengthened by the
addition of new employees, prior concerns and recommendations related to loan
concentration monitoring and extensions, deferrals, and renewals had not been addressed.
In the overall context of the examination findings, examiners decided to upgrade BOU’s
composite and component ratings (except for the Capital and Asset Quality component
ratings, which remained at a “2”) and terminate the MOU effective April 20, 2011.

Examiners noted that BOU’s independent loan review process was not adequate for the
size of the loan portfolio and classified 15 loans that had not been internally classified by
management. While the bank’s written guidance for loan reviews appeared reasonable, it
was not being implemented, and examiners recommended that management strengthen
the loan review process, thoroughly document such reviews, and maintain strong credit
standards given the growth in the loan portfolio. Adversely classified assets had
increased to $9.3 million since the prior examination, although examiners noted that the
increase was somewhat mitigated by the $5 million capital injection from one of UCC’s
principal shareholders.

While examiners commended management for its efforts in achieving the goals of the
MOU, examiners noted that continued improvement was needed in BOU’s processes for
measuring, monitoring, and controlling risk. The report of examination identified a
number of Matters Requiring Board Attention that included (among other things) the need
to:

   •   improve loan administration practices with regard to extensions, deferrals, and
       renewals;

   •   expand written guidelines to address specific limitations and monitoring
       requirements for concentrations; and



                                            I-21
   •   establish and implement written guidance for determining compensation
       arrangements for bank officers.

2012 Supervisory Activities

Following BOU’s ratings upgrade at the February 2011 joint examination, the bank’s
examination interval increased from 12 to 18 months. As a result, the next on-site
examination of BOU commenced in October 2012. During that FDIC examination,
examiners determined that BOU had experienced significant financial deterioration
stemming from aggressive lending in the livestock and trucking industries coupled with a
lack of Board and management oversight and supervision of the lending function.
Although examiners had repeatedly raised concerns to management about its liberal loan
renewals and practice of capitalizing interest, these risks had not been addressed and
concealed performance weaknesses in the loan portfolio. Consequently, reported levels
of past due and nonaccrual loans had been understated and the volume of adversely
classified assets increased 1,083 percent from the prior examination to $110 million. It
was also evident that the bank’s efforts to address the loan review concerns from the prior
examination were inadequate, as 96 percent of the adversely classified loans were not
internally classified by management and a provision of $49.4 million was required to
restore the ALLL to an acceptable level.

Examiners cited numerous concerns and weaknesses relative to the supervision of the
lending function, management of large asset concentrations, and controls pertaining to
overdrafts. Examiners noted that the Board had allowed the CEO to “exercise a dominant
level of control over the lending function” after the departure of three senior lending
officials in 2012. Notably, the CEO had originated $114.2 million (or 73 percent) of the
loans examiners criticized during the examination. Examiners attributed the lack of
oversight of the lending function as a contributing factor to the apparent violations of law
and contraventions of regulatory Statements of Policy identified during the examination.

In conjunction with the October 2012 FDIC examination, the FDIC conducted a targeted
review to determine the reasons why the three senior lending officials departed the bank
in a short period of time and whether there was any breach of fiduciary duties by bank
officers or directors in connection with certain loans. While the review did not uncover
any breach of fiduciary duties by the bank officers or directors, it did find that the bank
engaged in unsafe and unsound practices with respect to the manner in which the loan
portfolio was managed. Perhaps most notably, the FDIC’s review found significant
concerns in a $56 million borrower concentration described earlier in this report.
Specifically, the review indicated that:

   •   the bank’s collateral position was questionable. For example, lien searches
       indicated that feedlots were in a senior position to the bank and that BOU’s lien
       may have been subordinate to another bank;

   •   proceeds on certain loans to purchase cattle may have been used to also fund
       commodity purchases of cattle, wheat, oil, and gas futures;


                                            I-22
   •   credit files lacked independent cattle inspections and current financial statements
       needed to assess the creditworthiness of the borrowers; and

   •   the CEO frequently granted new loans, renewals, and extensions without Board
       approval.

Overall, the review indicated that the collateral, consisting primarily of cattle, was
unverifiable based upon the information available to examiners and, therefore, the
position of the bank in its collateral was suspect as to whether the bank had a perfected
interest in the cattle and where the cattle were located. The review further indicated that
the net worth of the borrowers provided no secondary source of repayment.

Based on the initial results of the 2012 FDIC examination, the Oklahoma State Banking
Commissioner issued an Order Directing Restoration of Capital against BOU on
December 14, 2012, requiring, among other things, that the bank increase equity capital
in the amount of $40 million. On December 27, 2012, one of UCC’s principal
shareholders invested the required capital. Notwithstanding the capital injection,
examiners considered the bank’s capital level to be inadequate given its risk profile. As a
result of the supervisory concerns identified during the examination, examiners
downgraded BOU’s composite rating to a “4” and lowered the Asset Quality and
Management components to a “5.”

2013 Supervisory Activities

Following the October 2012 examination, the FDIC continued to correspond with the
bank, periodically monitored bank documentation and financial performance reports, and
conducted two meetings with the full Board to discuss the examination findings. In a
letter dated April 3, 2013, the FDIC notified BOU that the bank was considered to be in a
“troubled condition.” Such a designation involves restrictions and limitations on certain
business activities. In the same letter, the FDIC communicated its intent to pursue a
formal enforcement action to address the safety and soundness concerns identified during
the examination. The Consent Order, signed by the FDIC and the Oklahoma State
Banking Commissioner, became effective on June 12, 2013. The FDIC and OSBD had
tentatively scheduled an on-site presence at the bank in August 2013. However, RMS
officials informed us that such activity was postponed until early October 2013 while the
bank attempted (unsuccessfully) to sell a large volume of loans during the summer of
2013.

The FDIC and OSBD performed a joint examination in October 2013 to assess BOU’s
financial condition and the bank’s compliance with the Consent Order. Examiners noted
that BOU’s condition was critically deficient and that capital had declined significantly
since the previous examination. Without an immediate infusion of capital, the viability of
the bank was threatened. Asset quality continued its sharp deterioration since the
previous examination and losses on loans and other assets were critically excessive.
Examiners determined that management’s overall performance was highly unsatisfactory.
In addition, earnings continued to be severely impacted by poor asset quality and
significant loss provisions required to appropriately fund the ALLL.
                                            I-23
Examiners noted that management had been reluctant to recognize deterioration or loss in
a timely manner—especially in livestock and trucking loans. It was further noted that
management’s efforts to address numerous provisions of the Consent Order were
insufficient or ineffective. Consequently, examiners assigned a “5” rating for all
CAMELS components and the composite rating. Among other things, the report of
examination noted:

   •   apparent violations of law, including apparent repeat violations of legal lending
       limits and FDIC Rules and Regulations, and contraventions of Statements of
       Policy;

   •   a lack of Board supervision and control over the lending function, aggressive
       lending, and excessive credit concentration risks;

   •   loan losses totaling $118.2 million, representing 259 percent of capital and
       reserves;

   •   seven individual credit concentrations totaling $91.5 million (or 28 percent of total
       assets), of which $64.1 million was considered loss and $16.7 million
       substandard;

   •   a past due and nonaccrual loan ratio of 53.83 percent, which had increased from a
       modest 1.99 percent at the prior examination; this substantial increase was
       attributed to the Consent Order’s restriction on management’s liberal use of credit
       extensions, deferrals, renewals, and overdrafts—all of which had the effect of
       clouding the true performance of the loan portfolio;

   •   repeat credit administration weaknesses, including an inadequate loan review and
       loan grading system, excessive loan documentation deficiencies, and a lack of
       appropriate credit memoranda in loan files;

   •   dominant control by the CEO over the lending function; and

   •   a required $96.9 million provision to restore the ALLL to a minimally acceptable
       level.

Concurrent with the October 2013 joint examination, RMS performed another targeted
review of BOU’s lending activities that focused on the bank’s large borrowing
relationship (described earlier in this report). In addition to identifying many of the
deficiencies and weaknesses described in the report of examination, the targeted review
found that BOU did not apply sound lending practices with respect to the borrowing
relationship, such as properly securing and inspecting collateral.




                                           I-24
Implementation of PCA
Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. The section requires regulators to take progressively more severe actions,
known as “prompt corrective actions” as an institution’s capital level declines. The
purpose of section 38 is to resolve the problems of insured depository institutions at the
least possible cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and
Regulations defines the capital measures used in determining the supervisory actions to
be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans (CRP)
and for the issuance of directives and orders pursuant to section 38. The FDIC is required
to closely monitor institution compliance with CRPs, mandatory restrictions defined
under section 38(e), and discretionary safeguards imposed by the FDIC (if any) to
determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to BOU, the FDIC properly
implemented the applicable PCA provisions of section 38. BOU was considered Well
Capitalized or Adequately Capitalized for PCA purposes until October 2013, at which
time the institution fell to and remained Critically Undercapitalized. Table 5
summarizes BOU’s capital ratios relative to the PCA thresholds for Well Capitalized
institutions during examinations and at other key points in time. A chronological
description of the changes in the bank’s capital categories and the FDIC’s
implementation of PCA follows the table.




                                           I-25
Table 5: BOU’s Capital Ratios
 Examination or Event        Total Risk-      Tier 1 Risk-
                                                               Leverage         PCA Capital Category
        Date                   Based             Based

      Well Capitalized
                                ≥10%              ≥6%            ≥5%
        Threshold
 6/23/2008 Examination          13.74            13.26           10.47             Well Capitalized

 1/11/2010 Examination          9.50              8.56           7.59           Adequately Capitalized

     8/9/2010 Visitation        12.54             -*             9.79              Well Capitalized

         2/7/2011
                                11.69            10.70            9.2              Well Capitalized
        Examination

        10/29/2012
                                11.30             9.99           8.47              Well Capitalized
        Examination

        6/12/2013
                                 -**              -**             -**           Adequately Capitalized
       Consent Order
        10/31/2013
                                1.77              0.88           0.60         Critically Undercapitalized
     PCA Notification***

 10/7/2013 Examination         -58.57            -58.57         -33.41        Critically Undercapitalized
Source: KPMG’s Analysis of BOU examination reports and PCA activities.
* The visitation did not cite the bank’s Tier 1 Risk-Based capital ratio.
** BOU became Adequately Capitalized because the Consent Order included a capital provision, not
because of its capital levels at that time.
*** The PCA notification was based on September 30, 2013 Call Report data.

During the October 2012 FDIC examination, examiners identified large loan losses and
an underfunded ALLL resulting in an examination-adjusted Capital Leverage ratio of
negative 2.40 percent. As a result, the OSBD issued an order directing BOU to raise
capital, and one of UCC’s principal shareholders made a $40 million capital injection
into the bank in December 2012. Although the bank was Well Capitalized based on the
capital injection, the FDIC and OSBD pursued a Consent Order that contained (among
other things) a capital provision. When the Consent Order became effective in June
2013, BOU could no longer be considered Well Capitalized for PCA purposes. 11

In a letter dated October 31, 2013, the FDIC notified BOU’s Board that the bank had
fallen to Critically Undercapitalized based upon its September 30, 2013, Call Report
filing and that the institution would be placed into receivership unless it was determined
that a different action would better carry out the purposes of section 38. The FDIC
further informed BOU’s Board that the bank was subject to the mandatory requirements

11
   Section 325.103(b)(1)(iv) of the FDIC Rules and Regulations states that for an institution to be
considered Well Capitalized, it must not be subject to any written agreement, order, capital directive, or
prompt corrective action directive issued by the FDIC pursuant to section 8 of the FDI Act, International
Lending Supervision Act of 1983 (ILSA), section 38 of the FDI Act, or any regulation thereunder, to meet
and maintain a specific capital level for any capital measure.


                                                   I-26
of section 38 and should develop policies and procedures to ensure compliance. Other
mandatory requirements applicable to BOU included, but were not limited to:

   •   the submission of a CRP to the FDIC;

   •   restrictions on asset growth, acquisitions, and new activities and branches; and

   •   restrictions on payments of dividends or making any other capital distributions,
       management fees, or executive compensation.

BOU requested, and the FDIC approved, an extension on the CRP submission deadline to
December 18, 2013. Upon receipt and review of the CRP, the FDIC deemed the plan
unacceptable and, given the rapid deterioration in the bank’s capital condition, issued a
PCA Directive on December 19, 2013. Among other things, the PCA Directive required
BOU to take certain actions including, but not limited to:

   •   submitting an acceptable CRP on or before December 27, 2013;

   •   increasing capital to restore the bank to an Adequately Capitalized position;

   •   not extending credit for any highly-leveraged transactions;

   •   refraining from extending, directly or indirectly, any additional credit to or for the
       benefit of any borrower whose existing credit is classified Loss, Doubtful,
       Substandard, or Special Mention;

   •   refraining from paying excessive compensation or bonuses; and

   •   restricting the declaration or payment of cash dividends without the prior written
       approval of the FDIC.

In a letter to the FDIC dated December 27, 2013, BOU’s Interim President/CEO informed
the FDIC that the bank’s management did not believe that it would be able to submit a
CRP acceptable to the FDIC. In addition, the principal UCC shareholder who had
previously provided capital support for the bank indicated that no further capital
investments in BOU would be made. Other efforts to recapitalize the bank were
unsuccessful. As a result, the OSBD closed BOU on January 24, 2014.

Supervisory Lessons Learned
BOU’s practice of continually extending, deferring, and renewing its livestock loans
warranted an elevated level of scrutiny because such credits are typically structured as
short-term loans that are paid off when the underlying collateral (i.e., livestock) is
liquidated. When the structure and purpose of such loans are not properly aligned and
enforced, the ability of bank management to effectively monitor the loans and identify


                                            I-27
performance problems can become compromised. Such practices also increase the
possibility that loan proceeds may be used for unintended purposes.

The February 2011 report of examination recommended that BOU improve its loan
administration practices with respect to extensions, deferrals, and renewals, which were
repeat recommendations from the January 2010 examination. In response, BOU’s
management informed the FDIC that it was taking various actions, such as modifying the
bank’s loan policy, briefing its loan officers about the concerns, and designating an
officer to monitor compliance with the loan policy. However, BOU did not address those
recommendations and continued its practice of extending, deferring, and renewing
loans. In retrospect, it would have been prudent for the FDIC to have followed up with
the bank to ensure these repeat concerns were promptly corrected. Further, a more
comprehensive assessment of BOU’s largest borrowing relationship—which primarily
involved livestock loans—may have uncovered the bank’s practice of using account
overdrafts to keep the debt of certain borrowers within the relationship current. In
addition, the report of examination was not critical of BOU’s collateral inspections
related to livestock loans. Our review of documentation in the examination working
papers for certain livestock loans, which later resulted in large losses, found that the
associated collateral documentation lacked relevant and detailed information and did not
evidence preparation by an independent third party.

Based on the deficient and uncorrected lending practices cited at the October 2012
examination, the OSBD promptly issued an order that, among other things, resulted in a
$40 million capital injection and significantly limited BOU’s ability to extend new credit,
helping to expose the degree to which borrowers of the bank, including its largest
borrowing relationship, were unable to pay their debt. The regulators also raised concern
about the independence and reliability of collateral inspections related to the bank’s
largest borrowing relationship. In response, BOU obtained a new inspection in December
2012 covering much of the collateral supporting the relationship’s debt, although
examiners later determined that the inspection’s independence and reliability were
questionable. These actions, however, could not reverse the substantial losses already
embedded in the bank’s loan portfolio, which led to the bank’s failure.

Under the FDIC’s forward-looking approach to bank supervision, which was re-
emphasized to the FDIC examination workforce in 2010, banks with weak risk
management practices are subject to increased supervisory analysis and a proactive
supervisory response when risks are not properly managed. With respect to BOU’s
agricultural and C&I loans, including livestock loans, such a response would have been
prudent and could have involved holding the Board and bank management to a stronger
commitment to address the repeat weak lending practices identified during the February
2011 examination and more promptly following up to confirm that collateral inspections
were adequate.




                                           I-28
On July 16, 2014, the FDIC issued FIL-39-2014, entitled Prudent Management of
Agricultural Credits Through Economic Cycles. 12 The FIL reminds FDIC-insured
institutions that engage in agricultural lending to maintain sound underwriting standards,
strong credit administration practices, and effective risk management strategies. With
respect to the issues raised in this report, the FIL states (among other things) that:

     •   risk analysis should center on a borrower’s cash flow and repayment capacity and
         not rely unduly on collateral values;

     •   credit analysis should assess the timing and level of projected cash flows over a
         reasonable period and ensure that cash flows match the purpose and terms of a
         loan;

     •   analysis of a borrower’s overall financial status, including credit history and use
         of nonbank credit, is an important part of assessing a borrower’s willingness and
         ability to repay their debts;

     •   lenders should analyze secondary repayment sources and collateral support levels;

     •   lenders should focus the credit analysis on a borrower’s financial strength and
         repayment ability; and

     •   management should document all lien perfections; conduct timely, independent
         collateral inspections; and develop a process for monitoring collateral values to
         manage risk over the life of a loan.

When an institution fails to adequately implement these lending practices, as was the case
with BOU, there is an increased risk to the institution and, ultimately, the DIF.




12
  This FIL rescinded and replaced FIL-85-2010, Prudent Management of Agricultural Credit through
Farming and Economic Cycles, dated December 14, 2010.


                                                I-29
                                                                            Appendix 1


              Objectives, Scope, and Methodology

Objectives

The objectives of this MLR were to (1) determine the causes of BOU’s failure and the
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of BOU,
including the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.
We conducted this MLR as a performance audit from March 2014 to July 2014 in
accordance with Generally Accepted Government Auditing Standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of the audit included a review of BOU’s financial condition, risk management
controls and practices, and business activities from the time of the June 2008 OSBD
examination until the bank’s failure on January 24, 2014. The audit also included an
evaluation of the regulatory supervision of the bank during the same time period.

To determine the causes of BOU’s failure and the resulting material loss to the DIF, we
reviewed relevant reports, correspondence, and other analyses prepared by RMS, DRR,
and the OSBD. For example, we reviewed reports of examination and visitation reports,
UBPRs, the FDIC’s Board case addressing BOU’s failure, and a supervisory history
prepared by RMS. We also reviewed certain reports and analysis prepared by BOU or its
contractors, including the Report of the Study of the Management and Staffing of The
Bank of Union and Proposed Management Plan. In addition, we interviewed RMS
officials in the Dallas Regional Office and Oklahoma City Field Office as well as OSBD
officials to obtain their perspectives on the principal causes of BOU’s failure. Further,
we met with DRR officials in the Dallas Regional Office and reviewed selected loan files
and bank records maintained by DRR.

To evaluate the FDIC’s supervision of BOU, including the FDIC’s implementation of
the PCA provisions of section 38 of the FDI Act, we assessed whether the supervisory
approach and actions taken with respect to BOU were commensurate with its risk profile
and relevant regulations, policies, and guidelines. Specifically, we:

   •   researched various banking laws and regulations to understand the requirements
       that were relevant to BOU in the context of the issues that contributed to the
       bank’s failure;

   •   identified and reviewed RMS policies and procedures, including the Risk
       Management Manual of Examination Policies and the Formal and Informal



                                          I-30
                                                                               Appendix 1

         Actions Procedures Manual, that were relevant to BOU and the supervisory
         actions taken with respect to the bank;

   •     analyzed reports of examination and visitation reports, as well as selected
         examination working papers, correspondence, and data maintained in ViSION, to
         identify the timing and nature of supervisory actions taken to address risks at the
         bank;

   •     reviewed selected loans files and related examination workpapers to determine if
         the loan files included adequate information on loan purpose, source of
         repayment, collateral and valuation, secondary support, payment terms, borrower
         financial information, lien perfections, reasons for modifications, and bank
         management approval, as well as the extent of RMS or OSBD review of the
         relationship during the scope period of the MLR;

   •     reviewed the FDIC’s offsite monitoring activities to determine the extent to which
         they complied with FDIC policy and affected the supervisory approach taken for
         BOU;

   •     reviewed bank data and correspondence files maintained at the RMS Dallas
         Regional Office and Oklahoma City Field Office;

   •     interviewed FDIC officials who had supervisory responsibility for BOU, most
         notably officials in the RMS Dallas Regional Office and examiners in the
         Oklahoma City Field Office, to obtain clarification and context regarding key
         supervisory activities and determinations; and

   •     contacted OSBD officials to obtain their perspectives on the supervision of BOU.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives and, therefore, we did not evaluate
the effectiveness of information system controls. We relied primarily upon hard-copy
and electronic information provided by the FDIC OIG, RMS, and DRR as well as
testimonial evidence provided during interviews. We did not perform specific audit
procedures to assess the reliability of this information. However, we are aware that
FDIC Circular 12000.1, Cooperation with the Office of Inspector General, dated
September 28, 2007, requires that all FDIC employees, contractors, and subcontractors
cooperate with the OIG in order for the OIG to carry out its statutory mandate. To that
end, all employees, contractors, and subcontractors must:

       (1) Provide authorized representatives of the OIG immediate and unrestricted
           access to all Corporation, receivership, contractor, and subcontractor personnel,
           facilities, equipment, hard copy and electronic records, files, information
           systems, and other sources of information when requested during the course of
           their official duties.



                                             I-31
                                                                             Appendix 1

     (2) Provide authorized representatives of the OIG immediate and unrestricted
         access to any records or material available to any part of the FDIC.

Regarding compliance with laws and regulations, we performed certain tests to determine
whether the FDIC had complied with relevant PCA provisions in section 38 of the FDI
Act. We also assessed compliance with aspects of the FDIC Rules and Regulations,
including the examination frequency requirements defined in section 337.12. The results
of our compliance tests are discussed in this report, where appropriate. Additionally, we
assessed the risk of fraud and abuse related to our audit objectives in the course of
evaluating audit evidence.

Related Coverage of Financial Institution Failures

Consistent with the FDIC OIG’s approach of considering the circumstances and lessons
learned from individual bank failures in the broader context of other bank failures, our
report contains no recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in MLRs, the FDIC OIG periodically
communicates those matters to FDIC management and makes recommendations, as
warranted.

We were provided with a memorandum issued by the OIG on May 1, 2009 that outlined
major causes, trends, and common characteristics of FDIC-supervised financial
institution failures that had resulted in a material loss to the DIF. The memorandum also
indicated that the OIG planned to provide more comprehensive coverage of those issues
and make related recommendations, when appropriate. Since May 1, 2009, the OIG has
issued additional MLR reports related to the failures of FDIC-supervised institutions, and
these reports can be found at www.fdicig.gov. In addition, the OIG issued an audit
report, entitled Follow-up Audit of FDIC Supervision Program Enhancements (Report
No. MLR-11-010), in December 2010. The objectives of the audit were to (1) determine
the actions that the FDIC has taken to enhance its supervision program since May 2009,
including those specifically in response to the May 2009 memorandum and (2) identify
trends and issues that have emerged from subsequent MLRs.

Further, the OIGs of the FDIC, the Department of the Treasury, and the Board of
Governors of the Federal Reserve System issued an evaluation report in September 2011,
entitled, Evaluation of Prompt Regulatory Action Implementation (Report No. EVAL-11-
006), which assessed the role and Federal regulators’ use of the Prompt Regulatory
Action provisions of the FDI Act (section 38, PCA, and section 39, Standards for Safety
and Soundness) in the banking crisis. The FDIC OIG also issued an evaluation report to
Congress, entitled Comprehensive Study on the Impact of Failure of Insured Depository
Institutions (Report No. EVAL-13-002), in January 2013. This report addressed a
number of topics relevant to failures, such as the evaluation and use of appraisals, the
implementation of the FDIC’s policy statement on CRE loan workouts, risk management
enforcement actions, and examiner assessments of capital.




                                           I-32
                                                                               Appendix 2


                       Glossary of Key Terms

          Term                                          Definition
Adversely Classified       Assets subject to criticism and/or comment in an examination
Assets                     report. Adversely classified assets are allocated on the basis of risk
                           (lowest to highest) into three categories: Substandard, Doubtful,
                           and Loss.

Adversely Classified       The Adversely Classified Items Coverage Ratio is a measure of the
Coverage Ratio             level of asset risk and the ability of capital to protect against that
                           risk. A lower ratio is desirable because a higher ratio indicates
                           exposure to poor quality assets and may also indicate less ability to
                           absorb the consequences of bad loans. The ratio is calculated as a
                           measure of Adversely Classified Items to Tier 1 Leverage Capital
                           and ALLL.

Allowance for Loan and     The ALLL is an estimate of uncollectible amounts that is used to
Lease Losses (ALLL)        reduce the book value of loans and leases to the amount that is
                           expected to be collected. It is established in recognition that some
                           loans in the institution’s overall loan and lease portfolio will not be
                           repaid. Boards of directors are responsible for ensuring that their
                           institutions have controls in place to consistently determine the
                           allowance in accordance with the institutions’ stated policies and
                           procedures, generally accepted accounting principles, and
                           supervisory guidance.
Call Report                Consolidated Reports of Condition and Income (also known as
                           Call Reports) are reports that are required to be filed by each
                           insured depository institution pursuant to the FDI Act. These
                           reports are used to calculate deposit insurance assessments and
                           monitor the condition, performance, and risk profile of individual
                           banks and the banking industry.


Capitalized Interest       Unpaid accrued interest that is added to the outstanding principal
                           loan balance.
Capital Restoration Plan   Section 325.104(a)(1) of the FDIC Rules and Regulations requires
(CRP)                      a bank to file a written CRP with the appropriate FDIC regional
                           director within 45 days of the date that the bank receives notice or
                           is deemed to have notice that the bank is Undercapitalized,
                           Significantly Undercapitalized, or Critically Undercapitalized,
                           unless the FDIC notifies the bank in writing that the plan is to be
                           filed within a different period.




                                         I-33
                                                                             Appendix 2


          Term                                          Definition
Cease and Desist Order    A formal enforcement action issued by financial institution
or Consent Order          regulators to a bank or affiliated party to stop an unsafe or unsound
                          practice or violation. A Cease and Desist Order may be terminated
                          by the regulators when they have determined that the bank’s
                          condition has significantly improved and the action is no longer
                          needed or the bank has materially complied with its terms. A
                          Consent Order is a Cease and Desist Order that has been stipulated
                          to by the bank’s Board.
Collateralized Mortgage   Sometimes referred to as structured credit products, CMOs are
Obligations (CMOs)        bonds that represent claims to specific cash flows from large pools
                          of home mortgages. The streams of principal and interest
                          payments on the mortgages are distributed to the different classes
                          of CMO interests, known as tranches, according to a specific deal
                          structure. Each tranche may have different principal balances,
                          coupon rates, prepayment risks, and maturity dates (ranging from a
                          few months to 20 years).

                          CMOs are often highly sensitive to changes in interest rates and
                          any resulting change in the rate at which homeowners sell their
                          properties, refinance, or otherwise pre-pay their loans. Investors in
                          these securities may not only be subject to this prepayment risk but
                          also exposed to significant market and liquidity risks.
Concentration             A concentration is a significantly large volume of economically
                          related assets that an institution has advanced or committed to a
                          certain industry, person, entity, geographic region, or affiliated
                          group. Collectively, these assets may, in the aggregate, present a
                          substantial risk to the safety and soundness of the institution.

                          The FDIC Exam Manual defines concentrations as (1) an exposure
                          to any industry, product line, or type of collateral representing
                          more than 100 percent of Tier 1 Capital and (2) an exposure to an
                          individual borrower or small interrelated group of individuals
                          aggregating more than 25 percent of Tier 1 Capital.
Efficiency Ratio          A measure of total overhead expense expressed as a percentage of
                          net interest income plus noninterest income. A low efficiency ratio
                          is generally considered to be favorable.

Extension, Deferral,      Extension: Extending monthly payments on a closed-end loan and
Renewal                   rolling back the maturity date by the number of months extended.
                          The account is shown current upon granting the extension. If
                          extension fees are assessed, they should be collected at the time of
                          the extension and not added to the balance of the loan.
                          Deferral: Deferring a contractually due payment on a closed-end
                          loan without affecting the other terms, including maturity, of the
                          loan. The account is shown current upon granting the deferral.
                          Renewal: Underwriting a matured, closed-end loan generally at its
                          outstanding principal amount and on similar terms.



                                       I-34
                                                                            Appendix 2


          Term                                        Definition
Global Cash Flow         A global cash flow analysis is a comprehensive evaluation of
Analysis                 borrower capacity to repay a loan. During underwriting, proper
                         global cash flow analysis must thoroughly analyze projected cash
                         flow and guarantor support. Beyond the individual loan, global
                         cash flow must consider all other relevant factors, including:
                         guarantor’s related debt at other financial institutions, current and
                         complete operating statements of all related entities, and future
                         economic conditions. In addition, global cash flow analysis should
                         be routinely conducted as a part of credit administration. The
                         extent and frequency of global cash flow analysis should be
                         commensurate to the amount of risk associated with the particular
                         loan.
Loan Production Office   Loan production offices are banking offices that take loan
                         applications and arrange financing for corporations and small
                         businesses, but they do not accept deposits. Loan applications are
                         subject to approval by the lending institution.
Material Loss            As defined by section 38(k)(2)(B) of the FDI Act, as amended by
                         the Dodd-Frank Wall Street Reform and Consumer Protection Act,
                         a material loss is defined as any estimated loss to the DIF in excess
                         of $50 million for losses that occur on or after January 1, 2014.


Memorandum of            An MOU is an informal agreement between the institution and the
Understanding (MOU)      FDIC, which is signed by both parties. The State Authority may
                         also be party to the agreement. MOUs are designed to address and
                         correct identified weaknesses in an institution’s condition.

Nonaccrual               The status of an asset, often a loan, which is not earning the
                         contractual rate of interest in the loan agreement due to financial
                         difficulties of the borrower. Typically, interest accruals have been
                         suspended because full collection of principal is in doubt, or
                         interest payments have not been made for a sustained period of
                         time. Loans with principal and interest unpaid for at least 90 days
                         are generally considered to be in a nonaccrual status.

Offsite Review List      The ORL identifies institutions warranting heightened supervisory
(ORL)                    oversight. Since the offsite review program is intended to identify
                         potential emerging problems, the ORL includes only those
                         institutions with a composite rating of a “1” or “2.”

Offsite Review           The FDIC’s Offsite Review Program is designed to identify a
Program                  bank’s emerging supervisory concerns and potential problems so
                         that supervisory strategies can be adjusted appropriately. Offsite
                         reviews are performed quarterly for each bank that appears on the
                         Offsite Review List based on certain financial ratios and other
                         factors. Regional management is responsible for implementing
                         procedures to ensure that offsite review findings are factored into
                         examination schedules and other supervisory activities.




                                      I-35
                                                                         Appendix 2


         Term                                    Definition
Peer Group           For financial analysis and comparison purposes, institutions are
                     assigned to 1 of 15 peer groups based on asset size, number of
                     branches, and whether the institution is located in a metropolitan or
                     non-metropolitan area.
Prompt Corrective    The purpose of PCA is to resolve the problems of insured
Action (PCA)         depository institutions at the least possible long-term cost to the
                     Deposit Insurance Fund. Part 325, subpart B, of the FDIC Rules
                     and Regulations, 12 Code of Federal Regulations, section 325.101,
                     et. seq., implements section 38, Prompt Corrective Action, of the
                     FDI Act, 12 United States Code, Section 1831(o), by establishing a
                     framework for determining capital adequacy and taking
                     supervisory actions against depository institutions that are in an
                     unsafe or unsound condition. The following terms are used to
                     describe capital adequacy: (1) Well Capitalized, (2) Adequately
                     Capitalized, (3) Undercapitalized, (4) Significantly
                     Undercapitalized, and (5) Critically Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective
                     action or compliance with the PCA statute with respect to an
                     institution that falls within any of the three categories of
                     undercapitalized institutions.
Repayment Program    An agreement between a lender and borrower that gives the
                     borrower a period of time to bring a delinquent loan current by
                     making regular monthly payments plus an additional amount to
                     repay the delinquency. The program may include renegotiated
                     terms that generally provide some measure of relief to the
                     borrower in terms of reducing the debt-servicing burden through
                     accommodative measures provided by the lender, such as
                     extending the term of the loan or rescheduling repayments.

Risk-Based Capital   A “supplemental” capital standard under Part 325 of the FDIC
                     Rules and Regulations. Under the risk-based capital framework, a
                     bank’s qualifying total capital base consists of two types of capital
                     elements, “core capital” (Tier 1) and “supplementary capital”
                     (Tier 2). Part 325 Appendix A—Statement of Policy on Risk-
                     Based Capital—defines the FDIC’s risk-based capital rules.
                     Appendix A states that an institution’s balance sheet assets and
                     credit equivalent amounts of off-balance sheet items are assigned
                     to broad risk categories according to the obligor, or, if relevant, the
                     guarantor or the nature of the collateral. The aggregate dollar
                     amount in each category is then multiplied by the risk weight
                     assigned to that category. The resulting weighted values from each
                     of the risk categories are added together, and this sum is the risk-
                     weighted assets total that, as adjusted, comprises the denominator
                     of the risk-based capital ratio. The institution’s qualifying total
                     capital base is the numerator of the ratio.




                                  I-36
                                                                              Appendix 2


          Term                                         Definition
Special Mention          A Special Mention asset has potential weaknesses that deserve
                         management's close attention. If left uncorrected, these potential
                         weaknesses may result in the deterioration of the repayment
                         prospects for the asset or in the institution's credit position at some
                         future date. Special Mention assets are not adversely classified
                         and do not expose an institution to sufficient risk to warrant
                         adverse classification.

Tier 1 Capital           Defined in Part 325 of the FDIC Rules and Regulations, 12 Code
                         of Federal Regulations, section 325.2(v), as
                         The sum of:
                         • Common stockholder’s equity (common stock and related
                         surplus, undivided profits, disclosed capital reserves, foreign
                         currency translation adjustments, less net unrealized losses on
                         available-for-sale securities with readily determinable market
                         values);
                         • Non-cumulative perpetual preferred stock; and
                         • Minority interest in consolidated subsidiaries;
                         Minus:
                         • Certain intangible assets;
                         • Identified losses;
                         • Investments in securities subsidiaries subject to section 337.4; and
                         • Deferred tax assets in excess of the limit set forth in section
                         325.5(g).
Uniform Bank             The UBPR is an analysis of financial institution financial data and
Performance Report       ratios that includes extensive comparisons to peer group
(UBPR)                   performance. The report is produced by the Federal Financial
                         Institutions Examination Council for the use of banking
                         supervisors, bankers, and the general public and is produced
                         quarterly from Call Report data submitted by banks.

Uniform Financial        Financial institution regulators and examiners use the UFIRS to
Institutions Rating      evaluate a bank’s performance in six components represented by
System (UFIRS)           the CAMELS acronym: Capital adequacy, Asset quality,
                         Management practices, Earnings performance, Liquidity position,
                         and Sensitivity to market risk. Each component, and an overall
                         composite, is assigned a rating of “1” through “5,” with “1” having
                         the least regulatory concern and “5” having the greatest concern.
Virtual Supervisory      An FDIC information system that provides access to a broad range
Information on the Net   of information related to insured financial institutions in support of
(ViSION)                 the Corporation’s insurance and supervision programs. RMS
                         personnel use the system to perform supervisory-related functions,
                         such as tracking applications, accessing examination information,
                         and monitoring enforcement actions. Analysts in the Division of
                         Insurance and Research also rely on information in ViSION to
                         perform insurance-related functions, such as analyzing trends in
                         the banking industry and calculating deposit insurance assessment
                         rates for financial institutions.



                                       I-37
                                                                            Appendix 3


                                    Acronyms

ALLL   Allowance for Loan and Lease Losses
BOU    The Bank of Union
CAMELS Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market
       Risk
CEO    Chief Executive Officer
C&I    Commercial and Industrial
CMO    Collateralized Mortgage Obligation
CRP    Capital Restoration Plan
DIF    Deposit Insurance Fund
DRR    Division of Resolutions and Receiverships
FDI    Federal Deposit Insurance
FIL    Financial Institution Letter
MLR    Material Loss Review
MOU    Memorandum of Understanding
OIG    Office of Inspector General
ORL    Offsite Review List
OSBD   Oklahoma State Banking Department
PCA    Prompt Corrective Action
RMS    Division of Risk Management Supervision
UBPR   Uniform Bank Performance Report
UCC    Union City Corporation
UFIRS  Uniform Financial Institutions Rating System
ViSION Virtual Supervisory Information on the Net




                                          I-38
                Part II

Corporation Comments and OIG Evaluation
Corporation Comments and OIG Evaluation
Subsequent to the issuance of KPMG’s draft report, RMS and OSBD officials provided
additional information for our consideration, and KPMG revised its report to reflect this
information, as appropriate. In addition, the Director, RMS, provided a written response,
dated September 5, 2014, to a draft of this report. That response is provided in its
entirety on pages II-2 and II-3 of this report.

In the response, the Director reiterated the causes of BOU’s failure and the supervisory
activities described in the report. The Director also agreed that, in retrospect, it would
have been prudent to have followed up with the bank after the February 2011 joint
examination to ensure that repeated concerns relative to loan extensions, deferrals, and
renewals were properly corrected. In addition, the Director referenced guidance that was
issued to FDIC-supervised institutions and examiners in 2010 and 2014 addressing
prudent management practices for agricultural credits and described past and future
examiner training initiatives focused on the evaluation of bank risk management
practices.




                                           II-1
CORPORATION COMMENTS




         II-2
II-3
